TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      The Internal Revenue Service Should
                        Improve Server Software Asset
                        Management and Reduce Costs



                                     September 25, 2014

                             Reference Number: 2014-20-042




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


THE INTERNAL REVENUE SERVICE                         any specialized software license management
SHOULD IMPROVE SERVER SOFTWARE                       tools for developing and maintaining such an
ASSET MANAGEMENT AND REDUCE                          enterprise-wide inventory. TIGTA estimates that
COSTS                                                the amount wasted because of the inadequate
                                                     management of server software licenses is in
                                                     the range of $81 million to $114 million based on
Highlights                                           amounts spent for licenses and annual license
                                                     maintenance that were not being used at the
                                                     time of a compliance review. This range could
Final Report issued on                               be lower or higher depending on the extent that
September 25, 2014                                   the IRS had used the licenses prior to the
                                                     compliance review. However, the IRS does not
Highlights of Reference Number: 2014-20-042          know if the software licenses were ever used. In
to the Internal Revenue Service Chief                addition, for some software, more licenses were
Technology Officer.                                  deployed than purchased. TIGTA estimates the
IMPACT ON TAXPAYERS                                  value of these overdeployed licenses to be in
                                                     the range of $24 million to $29 million.
Computer software is typically protected by
Federal copyright law, which requires users of       WHAT TIGTA RECOMMENDED
software programs to purchase licenses               To improve the management of server software
authorizing such use. Software licenses are          licenses based on Federal requirements and
legal rights to use software in accordance with      recommended industry best practices, TIGTA
terms and conditions specified by the software       recommended that the Chief Technology Officer
copyright owner. Efficient and cost-effective        incorporate server software license
management of the IRS’s software assets is           management in the enterprise-wide software
crucial to ensure that information technology        management program currently under
services continue to support the IRS’s business      development.
operations and help it to provide services to
taxpayers efficiently.                               In their response to the report, IRS management
                                                     agreed with the recommendation, and server
WHY TIGTA DID THE AUDIT                              software is already being considered as a
The overall objective was to determine whether       component of the enterprise-wide software
the IRS is adequately managing server software       management program under development. An
licenses. The audit is included in our Fiscal        Enterprise Software Governance Board has
Year 2014 Annual Audit Plan and addresses the        been established along with a working group.
major management challenge of Achieving              This effort includes the development of a
Program Efficiencies and Cost Savings.               standardized process for ensuring consistency
                                                     in asset management across the enterprise.
WHAT TIGTA FOUND                                     The IRS is also working to complete other
                                                     software management actions, including
The IRS does not effectively manage server           developing an enterprise-wide repeatable
software licenses and is not adhering to Federal     method to manage and track the deployment of
requirements and industry best practices. The        licenses that can be uniformly used by all
IRS does not have enterprise-wide or local           organizational entities responsible for managing
policies, procedures, and requirements for           licenses.
managing server software licenses and does
not have a centralized, enterprise-wide              Although the IRS agreed that inadequate
organizational structure for managing server         management of server software licenses is a
software licenses.                                   problem, it did not agree that it has resulted in
                                                     significant waste and believes it has mitigated
The IRS does not have an enterprise-wide             some of these issues with a software contract
inventory of license purchase and deployment         that was awarded at the end of 2012.
data on server-based software, nor does it have
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 25, 2014


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Internal Revenue Service Should
                             Improve Server Software Asset Management and Reduce Costs
                             (Audit # 201320024)

 This report presents the results of our review of the Internal Revenue Service’s (IRS)
 management of server software licensing. The overall objective of this review was to determine
 whether the IRS is adequately managing server software licenses. This review is included in our
 Fiscal Year 2014 Annual Audit Plan and addresses the major management challenge of
 Achieving Program Efficiencies and Cost Savings.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendation. If you have any questions, please contact me or Danny Verneuille, Acting
 Assistant Inspector General for Audit (Security and Information Technology Services).
                                 The Internal Revenue Service Should Improve
                             Server Software Asset Management and Reduce Costs




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Internal Revenue Service Does Not Effectively
          Manage Server Software Licenses ................................................................ Page 4
                    Recommendation 1:........................................................ Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 18
          Appendix II – Major Contributors to This Report ........................................ Page 22
          Appendix III – Report Distribution List ....................................................... Page 23
          Appendix IV – Outcome Measure ................................................................ Page 24
          Appendix V – Glossary of Terms ................................................................. Page 26
          Appendix VI – Management’s Response to the Draft Report ...................... Page 29
            The Internal Revenue Service Should Improve
        Server Software Asset Management and Reduce Costs




                   Abbreviations

GSA          General Services Administration
IBM          International Business Machines
IRS          Internal Revenue Service
IT           Information Technology
ITIL®        Information Technology Infrastructure Library
TIGTA        Treasury Inspector General for Tax Administration
VCMO         Vendor and Contract Management Office
                               The Internal Revenue Service Should Improve
                           Server Software Asset Management and Reduce Costs




                                              Background

Software asset management is a process for tracking and reporting the use and ownership of
software assets. Forrester Research Inc.1 defines software asset management as:
           The systematic automation of processes to reconcile software licenses and statements of
           entitlement, maintenance contracts, and original media with installed software and those
           processes for discovering deployed software assets; to reconcile the assets to their
           licenses, maintenance contracts, and definitions of entitlement; and to report on
           compliance and discrepancies in such a way as to minimize the risk of legal action by
           software vendors as well as loss of service to users or of reputation in the wider world.
A critical part of software asset management is server software license management. The
objective of software license management is to manage, control, and protect an organization’s
software assets, including management of the risks arising from the use of those software assets.
Proper management of software licenses helps to minimize risks by ensuring that licenses are
used in compliance with licensing agreements and cost-effectively deployed and that software
purchasing and maintenance expenses are properly controlled.
Software license management can be difficult because:
          A large amount of information on software and hardware must be discovered and stored.
          Data need to be kept current on more than an annual basis.
          Identifying installed software and software license use may be affected by the
           complexities in software installation and license use.
          Licensing models and definitions may significantly differ depending on the software
           product and vendor.
Federal requirements established by Executive Orders, the Federal Chief Information Officer
Council, the National Institute of Standards and Technology, and the Department of the Treasury
as well as recommended industry best practices govern the use and management of software
licenses. These sources provide guidance to ensure that software licenses are 1) efficiently
purchased and are not being nondeployed or underdeployed, 2) used in compliance with
copyright laws, and 3) inventoried through the use of adequate recordkeeping systems that
control and track the use of licenses.
Due to the complexity of the Internal Revenue Service’s (IRS) software license environment, the
Treasury Inspector General for Tax Administration (TIGTA) conducted three separate audits on

1
    See Appendix V for a glossary of terms.
                                                                                              Page 1
                           The Internal Revenue Service Should Improve
                       Server Software Asset Management and Reduce Costs



the issue: 1) desktop and laptop environment, 2) mainframe environment, and 3) server
environment. In the two previous TIGTA audits,2 we reported that for the desktop and laptop
environment and the mainframe environment, the IRS did not:
       Adequately perform software license management.
       Adhere to Federal requirements and recommended industry best practices.
       Have enterprise-wide or local policies, procedures, and requirements for software license
        management.
       Have defined roles and responsibilities and a centralized organizational structure for
        managing software licenses.
       Use specialized software license tools designed to be the repository for software and
        software license deployment. These tools should be used to discover, track, manage, and
        detect inactive usage of software licenses.
       Have an accurate inventory of software and related licenses that contains licensing
        models applicable to each software product which links data on the licenses purchased
        and deployed with the purchase costs, procurement information, and monitoring and
        usage data.
To address the reported issues, the IRS planned corrective actions to implement TIGTA
recommendations regarding:
       The development of policies, procedures, and requirements for managing software
        licenses using Information Technology Infrastructure Library (ITIL®) best practices.
       The development of roles and responsibilities for software license management.
       The development of an enterprise-wide organizational structure to manage software
        licenses.
       The implementation of specialized software tool(s) designed to discover, track, and
        manage software licenses.
       The development of standard operating procedures for using software tools to manage
        software licenses.
       The development of an enterprise-wide inventory of software licensing data and
        maintaining the inventory with specialized software license tools.



2
 TIGTA, Ref. No. 2013-20-025, Desktop and Laptop Software License Management Is Not Being Adequately
Performed (Jun. 2013) and TIGTA, Ref. No. 2014-20-002, The Internal Revenue Service Should Improve
Mainframe Software Asset Management and Reduce Costs (Feb. 2014).
                                                                                                  Page 2
                         The Internal Revenue Service Should Improve
                     Server Software Asset Management and Reduce Costs



      Maintaining data in the inventory system that the IRS can use to more effectively review
       software licensing agreements, purchases, deployment, usage, and other related aspects of
       licensing to identify additional savings in software spending.
While the prior audits focused on the desktop and laptop environment and the mainframe
environment, this audit focused on the software and license management of the IRS’s server
environment.
This review was performed at the Information Technology (IT) organization’s Enterprise
Operations and Strategy and Planning organizations in New Carrollton, Maryland, and the IRS
Campus in Austin, Texas. Additionally, information was obtained from the many business units
that were managing software products we reviewed, such as the Research, Analysis and Statistics
function; the Communications and Liaison function; the Wage and Investment Division; the
Large Business and International Division; the Agency-Wide Shared Services; and other
functions within the IT organization during the period May 2013 to March 2014.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                          Page 3
                            The Internal Revenue Service Should Improve
                        Server Software Asset Management and Reduce Costs




                                    Results of Review

The Internal Revenue Service Does Not Effectively Manage Server
Software Licenses
Executive Order 13103, Computer Software Piracy, requires and ITIL best practices recommend
the development of software license management policies and procedures and roles and
responsibilities. The ITIL and industry best practices recommend a centralized, enterprise-wide
management structure for software asset management. These best practices indicate that some of
the most significant benefits of software asset management, both cost and risk-management
benefits, come from managing software on an enterprise-wide basis. An enterprise-wide
management structure can actively manage software assets to know the location, configuration,
and usage history of every product. In addition, an enterprise-wide management structure
supported by an enterprise-wide inventory and automated software license management tools can
better provide procurement staff with the detailed and accurate information needed to negotiate
flexible, cost-effective contracts and form the basis for cost reduction projects such as platform
stabilization, volume bundling, securing longer term agreements, and vendor or hardware
consolidation. In September 2010, the IRS’s Chief Technology Officer outlined a goal to have
the IT organization implement the ITIL best practices over the next several years. The IRS
reported that the IT organization had achieved ITIL Maturity Level 3 in October 2012.
Executive Orders;3 Department of the Treasury Directive 85-02, Software Piracy Policy;4 and
Internal Revenue Manual 10.8.25 require and ITIL and industry best practices recommend
creating and maintaining accurate enterprise-wide inventories of installed software and licenses.
These inventories should contain licensing models applicable to each software product and link
the data on licenses bought and deployed, including costs. This will help ensure that software
purchased is not nondeployed or underdeployed and that software is used in compliance with
copyright laws.
The National Institute of Standards and Technology Special Publication 800-53, Recommended
Security Controls for Federal Information Systems and Organizations,6 and Treasury Directive
Publication 85-01, Treasury IT Security Program,7 require and ITIL and industry best practices
recommend implementing enterprise-wide software asset discovery, network scanning, license

3
  Exec. Order No. 13103, Computer Software Piracy (1998), and Exec. Order No. 13589, Promoting Efficient
Spending (2011).
4
  Dated May 4, 2010.
5
  Internal Revenue Manual 10.8.2 (Sept. 9, 2012).
6
  Dated Aug. 2009.
7
  Dated Nov. 3, 2006.
                                                                                                       Page 4
                             The Internal Revenue Service Should Improve
                         Server Software Asset Management and Reduce Costs



management, and license metering tools. Software asset discovery tools are used to identify
installed software and collect relevant details about each installed software product. Network
scanning tools are used to detect and remove any unauthorized or unlicensed installed software.
Software license management tools help to ensure compliance with licensing agreements by
tracking license usage, linking upgrades to original licenses, linking licenses bought to licenses
used, and managing the stock of unused licenses. License metering tools help to ensure that
licenses are used cost effectively by detecting installed software that is not being used, is being
underutilized, or is being overutilized so that the licenses can be managed effectively.

The IRS does not have defined policies and procedures or roles and
responsibilities for server software license management
The IRS does not have an enterprise-wide software licensing program designed around industry
best practices. The IRS does not have enterprise-wide or local policies, procedures, and
requirements for managing server software licenses. The IRS has defined software asset and
license management roles and responsibilities only for the Chief Information Officer/Chief
Technology Officer in Internal Revenue Manual 10.8.2, IT Security Roles and Responsibilities.8
Internal Revenue Manual 2.14.1, Asset Management, Information Technology (IT) Asset
Management,9 does not provide any additional roles and responsibilities for software asset and
license management.
Two offices within the IT organization have mission statements that suggest those functions have
some responsibility for managing server software assets and licenses. However, personnel in the
offices stated that they do not have any defined server software license management policies and
procedures or roles and responsibilities.
         Security Operations and Standards Division. Part of the mission of this division is to
          oversee infrastructure inventory, asset management, and procurement. The Acquisition
          and Contracts Management Section within this division processes software requisitions
          for most mainframe and server software. To process software requisitions, the
          IT organization works with customers in preparing, approving, and submitting
          requisitions to the IRS Office of Procurement. While the Acquisition and Contracts
          Management Section reviews mainframe and server requisitions, including ones it does
          not process, the section does not perform any analysis or report on software contracts or
          licensing. The section does not perform any comparative analysis of software
          requisitions to software inventory to determine if software purchases could be made more
          cost effectively.
         Vendor and Contract Management Office (VCMO). The mission of this office is to
          maximize the value of information technology investments by implementing effective


8
    Dated April 29, 2011.
9
    Dated November 8, 2011.
                                                                                             Page 5
                             The Internal Revenue Service Should Improve
                         Server Software Asset Management and Reduce Costs



        sourcing strategies, monitoring vendor performance and contract management, and
        facilitating strong acquisition governance processes.
The IRS also does not have a centralized, enterprise-wide organizational structure for managing
server software licenses. Functions managing server licenses are dispersed throughout the
IT organization and business units depending on factors such as whether the software is platform
infrastructure, a specialized application used by a specific business unit, and in general, what
process the software is used to perform. However, the VCMO has recently begun conducting
activities that are partially related to centralized, enterprise-wide software license management
for International Business Machines (IBM) and Microsoft server and workstation software, as
explained in the next section. VCMO personnel stated that, in response to a prior TIGTA audit
report recommendation,10 they are in the process of developing roles, responsibilities, and
standards for an enterprise-wide software asset management program.
Our review of 23 server software products revealed that the IRS is not adequately managing
server software licenses. Figure 1 shows that licenses for eight software products were
underdeployed by an average of 41.9 percent of the licenses owned, at an estimated cost of
$5.3 million and an estimated average of $666,000 per software product. Licenses for one
software product were overdeployed by 1,150.0 percent of the licenses owned, at an estimated
cost of $11.6 million. Our figures on license underdeployments only include amounts in excess
of 10 percent of the number of licenses purchased.11




10
   TIGTA, Ref. No. 2013-20-025, Desktop and Laptop Software License Management Is Not Being Adequately
Performed (Jun. 2013).
11
   We allowed a 10-percent cushion for the purchase of additional licenses that might have been bought at volume
discount prices in anticipation of additional licenses being needed in the near future.
                                                                                                           Page 6
                              The Internal Revenue Service Should Improve
                          Server Software Asset Management and Reduce Costs



             Figure 1: Software Licenses Underdeployed and Overdeployed

                                     Number of
                Number of            Licenses                  Percentage of
                 Licenses         Underdeployed or           Underdeployment
Software        Purchased          Overdeployed             or Overdeployment               Estimated Cost

                                                Underdeployment12

Product 1          1,056                   298                       28.2            $1.7 million on licenses
                                                                                     $1.6 million on licenses and
Product 2          3,374                  2,870                      85.1
                                                                                     one year of maintenance
                                                                                     $850,000 on licenses and
Product 3         153,500                11,290                      7.4
                                                                                     one year of maintenance
                                                                                     $838,000 on licenses and
Product 4         104,920                16,478                      15.7
                                                                                     one year of maintenance
                 Unlimited         One entire module
                                                                                     $148,000 on licenses and
Product 5     across multiple     not deployed (20.9%                20.9
                                                                                     five years of maintenance
                 modules             of the contract)
                                                                                     $96,000 on licenses and
Product 6         250,000                69,932                      28.0
                                                                                     two years of maintenance
                                                                                     $68,000 on licenses and
Product 7            18                    1813                     100.0
                                                                                     three years of maintenance
                                                                                     $26,000 on licenses and
Product 8             4                     2                        50.0
                                                                                     one year of maintenance
 Total 8                                                                             $5.3 million
                                                               41.9 (average)
Products                                                                             (average $666,000)

                                                  Overdeployment

                                                                                     $11.6 million for additional
Product 9            32                    368                     1,150.0           licenses and maintenance
                                                                                     for one year
 Source: TIGTA analysis of IRS purchase records, software and hardware data, and discussions with IRS
 IT organization and business unit management and personnel.




12
   We allowed a 10-percent cushion for the purchase of additional licenses that might have been bought at volume
discount prices in anticipation of additional licenses being needed in the near future. The number of underdeployed
licenses is in excess of the 10-percent cushion.
13
   Cushion not allowed because no licenses were deployed.
                                                                                                            Page 7
                         The Internal Revenue Service Should Improve
                     Server Software Asset Management and Reduce Costs



In addition to underdeployment and overdeployment of server software licenses, our review of
the 23 server software products identified the following instances of inadequate software license
tracking and management:
      For 11 products, the IRS did not have documentation explaining the terms, definitions,
       limitations, or conditions imposed by the software’s license model. Such documentation
       explaining the license model should be retained to ensure that the model is properly
       applied to deployed licenses. For one of the 11 products (Product 9), the IRS
       misunderstood the license model, causing the licenses to be significantly overdeployed.
      For 15 products, the IRS did not have reports that tracked the number of licenses
       deployed against the number of licenses purchased.
           o For six of the 15 products, a local informal discussion was held annually when
             maintenance needed to be purchased. For these six products, we obtained data on
             installed instances of the software and the servers the software was installed on to
             determine the number of licenses deployed. We determined that four products did
             not result in underdeployment or overdeployment of licenses, but for one product
             (Product 9), significant overdeployment of licenses had occurred, and for another
             product (Product 8), licenses were underdeployed.
           o For three of the 15 products, the IRS maintained data from which it could perform
             extractions to determine the number of licenses deployed. We requested that
             reports be prepared for these three products and found that licenses were being
             underdeployed for each of the three products (Products 1, 3, and 4).
           o For two of the 15 products, the IRS could not provide any data that could be used
             to determine the number of licenses deployed.
           o For four of the 15 products, the nature of the license model did not require
             tracking of deployed licenses.

The IRS does not use software license tools and does not maintain server license
inventories in accordance with Federal requirements and industry best practices
Neither the Enterprise Operations organization nor the VCMO within the IT organization has an
enterprise-wide inventory of license purchase and deployment data on server-based software or
any specialized software license management tools for developing and maintaining such an
enterprise-wide inventory. The functions managing licenses are dispersed (decentralized)
throughout the IT organization and business units. Any license tracking records are stored
locally. Decentralized groups that may be managing and tracking licenses on server software are
doing so by using queries, spreadsheets, record systems, scanning tools not specifically designed
for software license management to gather rough software data, utilities unique to the software
product being tracked, and manual calculations to maintain their own software licensing records.


                                                                                            Page 8
                         The Internal Revenue Service Should Improve
                     Server Software Asset Management and Reduce Costs



The VCMO was the only function we identified that was conducting activities that are partially
related to centralized, enterprise-wide software license management, and they were doing it for
only IBM and Microsoft server and workstation software. However, these activities were not an
adequate software license management process, did not use specialized software license
management tools, and did not produce software license inventories for all IBM and Microsoft
software.
Even though the IRS does not have written policies and procedures for managing server software
licenses, through interviews, we obtained information on the local approach or processes used by
the VCMO to manage server software licenses for IBM and Microsoft software. To determine
the number of licenses deployed, the VCMO begins by using a search tool to find IBM and
Microsoft server software in an IRS database containing data on installed instances of software
and the computers the software is installed on. The data are on installed software instances
because the scanning tool that creates the database has no licensing scanning capability. The
search for IBM and Microsoft server software within this database produces a server table that
lists servers having installed instances of IBM and Microsoft software, along with data on the
software and the servers. Because licensing models can vary among different software, the
VCMO then has to use the hardware and software data provided in the table, or from other
sources as appropriate, to calculate the number of licenses deployed on the servers in this table.
The VCMO uses the data in the server table to create a license deployment table listing software
and the number of licenses deployed. The VCMO obtains from IBM and Microsoft data on
software and licenses purchased by the IRS to create a license entitlement table listing software
and the number of licenses purchased.
These tables do not contain any reports matching the number of licenses deployed to the number
purchased on any IBM or Microsoft software product. Performing a license reconciliation is not
as simple as just matching a software product in the license deployment table to the license
entitlement table because software titles are often named differently due to the data in the
two tables coming from different sources. Sometimes the server table with the query results
needs to be researched again in a different way to more accurately determine the number of
licenses deployed. These three tables give the VCMO the capability to perform additional
analysis and calculations on a request basis. The VCMO uses these tables to produce license
reports only on a case-by-case basis when a report is needed on specific IBM and Microsoft
software products, e.g., when data are needed for contract renewals. However, we could not
review these reports because the VCMO did not save the reports or worksheets.
The activities performed by the VCMO for tracking the deployment of software licenses and
entitlement on IBM and Microsoft software are not considered adequate software license
management because:
      This capability is used only on specific software when requested, usually during contract
       renewal. The process is more for contract management than software license
       management. The process provides tables of information so that when it is time to renew

                                                                                           Page 9
                          The Internal Revenue Service Should Improve
                      Server Software Asset Management and Reduce Costs



       a contract, personnel can refer to the tables and only have to perform the additional
       analysis and calculations to determine license requirements. After the contract is
       renewed, the process does not provide ongoing software license tracking and
       management with frequent inventory updating.
      The process does not result in an inventory list of software products showing the number
       of licenses purchased and deployed. The VCMO stated that they have neither the
       resources nor the tools to perform all of the additional analysis and calculations necessary
       to regularly prepare license reconciliation reports on all of the IBM and Microsoft
       software being used by the IRS.
      The VCMO has calculated license deployment and license entitlement only on specific
       software requests it receives and did not keep the additional worksheets and license
       reports after they were provided to the requestors.
      The scanning tool that creates the IRS database containing data on installed instances of
       software and the computers the software is installed on cannot reach all computers that
       have the software installed, causing VCMO calculations of deployment counts to be
       undercounted.
For eight of the 23 server software products we reviewed, the IRS had reports that tracked the
number of licenses deployed against the number of licenses purchased, but seven of the eight
software products records were being maintained locally, not in a centralized inventory, and
tools designed for software license management were not being used.
Without these tools and a software asset and license management structure in place, the IRS
cannot effectively determine if the software contracts it enters into are reflective of its current or
future projected server software license and support needs. In addition, the IRS cannot, from an
enterprise-wide basis, effectively manage its server software and license compliance to the
contract option-year renewals. In September 2007, the IRS entered into a one-year contract with
four option years for the use and support of IBM software. In September 2012, an external
contractor hired by the prime contractor, i.e., IBM, completed a compliance review of the IRS’s
contract for IBM software and related licensing. Using asset discovery, network scanning,
license management, and license metering tools, this contractor found several issues that
included nondeployed, underdeployed, and overdeployed software licenses that the IRS had
purchased under the contract. In turn, the IRS hired its own contractor, costing $50,000, to
evaluate the compliance review results and to assist the IRS in negotiating a new contract
agreement. The IRS-hired contractor did not dispute the results from the compliance review.
As shown in Figures 2 through 4, TIGTA used data from the original compliance review and the
General Services Administration (GSA) list price costs to estimate the extent that the licenses for
server software were nondeployed, underdeployed, and overdeployed and the related estimated




                                                                                              Page 10
                              The Internal Revenue Service Should Improve
                          Server Software Asset Management and Reduce Costs



value.14 Figure 2 shows that no licenses were deployed for 43 software products at the time of
the compliance review, at an estimated range of value from $43.3 million to $62.0 million and an
estimated average range of $1.0 million to $1.4 million per software product. This range could
be lower or higher depending on the extent that the IRS had used the licenses prior to the
compliance review. However, the IRS does not know if the software licenses were ever used.
                      Figure 2: IBM Software With No Licenses Deployed

                                                        Estimated Values

      Software                      GSA Price List                             30-Percent Discount15 

      Product 1                       $14.6 million                                 $10.2 million
      Product 2                       $10.4 million                                  $7.3 million
      Product 3                       $7.2 million                                   $5.0 million
      Product 4                       $5.4 million                                   $3.8 million
      Product 5                       $5.0 million                                   $3.5 million
      Product 6                       $4.6 million                                   $3.2 million
      Product 7                       $1.9 million                                   $1.3 million
      Product 8                       $1.9 million                                   $1.3 million
      Product 9                       $1.3 million                                   $0.9 million
     Product 10                       $1.3 million                                   $0.9 million
     33 Products            $8.4 million (average $255,000)               $5.9 million (average $178,800)

      Total 43
                         $62.0 million (average $1.4 million)          $43.3 million (average $1.0 million)
      Products

     Source: TIGTA analysis of IRS and contractor records, 2012 GSA Price List, and discussions with
     IRS IT organization management and personnel.

Figure 3 shows that licenses for 18 software products were underdeployed by an average of
66.5 percent of the licenses owned at the time of the compliance review, at an estimated range of
value from $32.8 million to $46.8 million and an estimated average range of $1.8 million to
$2.6 million per software product. This range could be lower or higher depending on the extent


14
   We used GSA list prices because the IBM contract in effect when the compliance review was performed did not
include itemized pricing information that TIGTA could use to determine the exact cost of the nondeployed,
underdeployed, and overdeployed software licenses and related software and subscription support. The GSA list
price was the only itemized pricing information available.
15
   The IRS commented that, due to its volume purchasing of IBM software, it received a 30-percent discount off the
GSA price; however, the IRS is unable to provide any supporting evidence of the discount.
                                                                                                         Page 11
                              The Internal Revenue Service Should Improve
                          Server Software Asset Management and Reduce Costs



that the IRS had used the licenses prior to the compliance review. However, the IRS does not
know if the software licenses were ever used. Our figures on license underdeployments only
include amounts in excess of 10 percent of the number of licenses purchased.
                      Figure 3: IBM Software With Licenses Underdeployed

                                                                         Estimated Values

                            Percentage of                                                    30-Percent
       Software            Underdeployment                   GSA Price List                  Discount16

       Product 1                   79.9                         $7.5 million                 $5.2 million
       Product 2                   83.1                         $6.3 million                 $4.4 million
       Product 3                   80.0                         $6.1 million                 $4.3 million
       Product 4                   42.5                         $5.4 million                 $3.8 million
       Product 5                   86.1                         $4.3 million                 $3.0 million
       Product 6                   89.8                         $3.8 million                 $2.7 million
       Product 7                   89.7                         $2.7 million                 $1.9 million
       Product 8                   89.3                         $2.4 million                 $1.7 million
       Product 9                   89.7                         $2.2 million                 $1.5 million
      Product 10                   34.1                         $2.0 million                 $1.4 million
                                                               $4.1 million                 $2.9 million
     Eight Products          54.1 (average)
                                                           (average $513,000)           (average $362,500)

       Total 18                                               $46.8 million               $32.8 million
                             66.5 (average)
       Products                                           (average $2.6 million)      (average $1.8 million)

     Source: TIGTA analysis of IRS and contractor records, 2012 GSA Price List, and discussions with
     IRS IT organization management and personnel.

Figure 4 shows that licenses for 11 software products were overdeployed by an average of
309.1 percent of the licenses owned, at an estimated range of value from $12.0 million to
$17.2 million and an estimated average range of $1.1 million to $1.6 million per software
product.




16
 The IRS commented that due to its volume purchasing of IBM software it received a 30-percent discount off the
GSA price; however, the IRS is unable to provide any supporting evidence of the discount.
                                                                                                        Page 12
                              The Internal Revenue Service Should Improve
                          Server Software Asset Management and Reduce Costs



                     Figure 4: IBM Software With Licenses Overdeployed

                                                                        Estimated Values
                            Percentage of
      Software
                           Overdeployment
                                                            GSA Price List            30-Percent Discount17

      Product 1                  129.0                        $4.4 million                  $3.1 million
      Product 2                   84.0                        $4.3 million                  $3.0 million
      Product 3                  462.5                        $4.2 million                  $2.9 million
      Product 4                   96.7                        $2.0 million                  $1.4 million
      Product 5                  445.0                        $1.0 million                  $0.7 million
     Six Products           363.8 (average)                   $1.3 million                  $0.9 million
                                                          (average $217,000)            (average $150,000)

      Total 11                                              $17.2 million                 $12.0 million
                            309.1 (average)
      Products                                          (average $1.6 million)        (average $1.1 million)

     Source: TIGTA analysis of IRS and contractor records, 2012 GSA Price List, and discussions with
     IRS IT organization management and personnel.

IRS management informed us of several potential factors it believed affected the software license
nondeployments and underdeployments in Figures 2 and 3.
         Some license underdeployment could be attributed to software that is in the process of
          being replaced by a different product prior to expiration of the entitlements, resulting in
          significant short-term underdeployments until the entitlements expire.
         Some license underdeployment could be attributed to software that is in the process of
          being deployed as a project grows.
         Some nondeployed licenses could be for software modules within a large software suite
          that the IRS has no need for but must buy as a package from the vendor.
IRS management also commented that the estimated costs we provided are inflated because the
IRS is a large purchaser of IBM software and it pays less than the GSA price. However, the IRS
was unable to provide documentation to support that the comment and potential factors
specifically applied to the software in Figures 2 through 4. Nonetheless, to account for the
possibility that the IRS received a substantially discounted price, we provide a range of values in
Figures 2 through 4.



17
 The IRS commented that due to its volume purchasing of IBM software it received a 30-percent discount off the
GSA price; however, the IRS is unable to provide any supporting evidence of the discount.
                                                                                                       Page 13
                          The Internal Revenue Service Should Improve
                      Server Software Asset Management and Reduce Costs



The IRS does not have enterprise-wide or local server software asset and license management
policies and procedures, an asset and license management structure, or defined roles and
responsibilities in accordance with Federal requirements and industry best practices. The IRS
does not have an enterprise-wide inventory of server software assets and software licensing data
in accordance with Federal requirements and industry best practices. Additionally, the IRS has
not identified and implemented automated software license tools for the enterprise-wide
management of server software assets and licenses. This is due, in part, to Internal Revenue
Manual 2.14.1, Asset Management, Information Technology (IT) Asset Management
(November 8, 2011), which states in section 13.17 that software management is under
development and that procedures are being defined.
The lack of an enterprise-wide inventory with comprehensive data on all server software assets
and software licensing impedes the IRS’s ability to more effectively analyze the relationships
among its software license agreements and vendors to more cost effectively buy software
licenses and maintenance. In an effort to offset budget constraints, the IT organization created
the VCMO with a mandate to create savings by promoting innovative sourcing alternatives that
generate the same or additional value while minimizing risk. Because the IRS does not have
adequate software licensing tools and inventories, the VCMO has to improvise using various
tools and data and search various record systems to manually compile hardware and software
data and then perform additional calculations to conduct software licensing analysis. The
VCMO has achieved some software licensing savings during the last two years, but we believe
that better software license inventories and tools would enable it to identify additional savings
opportunities.
Until the IRS addresses the issues presented in this report, it is incurring increased risks in
managing software licenses. These risks include: 1) not complying with licensing agreements,
which could result in embarrassment, legal problems, and financial liability; 2) not using licenses
in the most cost-effective manner; and 3) not effectively using licensing data to reduce software
purchase and software maintenance costs. In fact, these deficiencies have already resulted in
licenses for server software being nondeployed or underdeployed (with an estimated cost in the
range of $81.4 million to $114.1 million) and overdeployed (with an estimated value in the range
of $23.6 million to $28.8 million.
Because the IRS does not have an enterprise-wide software licensing program designed around
industry best practices, dispersed functions throughout the IT organization and business units are
performing software license management at inconsistent levels of quality. For example:
      For one of the 23 software products we reviewed, the staff created a SharePoint website
       to manage software licenses. The site had the software license agreement, written
       procedures prepared by the staff for managing and tracking the deployment of software
       licenses, and other documentation on the software. They also created a database
       containing data on the servers to which licenses had been assigned, which enables them
       to produce reports for managing the licenses. The staff periodically refers to an IRS list

                                                                                           Page 14
                         The Internal Revenue Service Should Improve
                     Server Software Asset Management and Reduce Costs



       of active computers and returns to inventory licenses on computers no longer in use. This
       enables them to reassign those licenses when new needs arise instead of purchasing
       additional licenses. As a result of this manual process created by the local personnel
       managing this software product, the number of software licenses deployed was within
       close range to the number purchased. Annual maintenance was being purchased only on
       those licenses being used and on additional licenses that might need to be deployed
       within the upcoming fiscal year.
      For another of the 23 software products we reviewed, software license management was
       being performed informally with various staff conferring annually to discuss the purchase
       of software license maintenance. They could not provide us with any records to support
       the deployment of the software and software licenses. They did not have a copy of the
       software license agreement needed to understand the license model and had to obtain it
       from the vendor at our request. We requested that the IRS provide us with detailed data
       on the servers that had installed instances of the software so that we could compute the
       number of software licenses being used. We determined that the IRS was significantly
       overdeploying software licenses. The IRS had purchased 32 licenses but needed at least
       400 licenses. We determined that the cost to purchase and pay annual maintenance on
       368 additional licenses for Fiscal Year 2013 was about $11.6 million using the actual
       costs incurred by the IRS to purchase and pay annual maintenance on the 32 licenses.
       IRS staff misunderstood the license metric and believed that the licenses purchased
       resulted in one license that allowed unlimited use of the software. The IRS plans to
       contact the vendor to determine corrections that need to be made to this license purchase.

Recommendation
To improve the management of server software licenses based on Federal requirements and
recommended industry best practices, the Chief Technology Officer should:
Recommendation 1: Incorporate server software license management in the enterprise-wide
software management program currently under development.
       Management’s Response: IRS management agreed with the recommendation, and
       server software is already being considered as a component of the enterprise-wide
       software management program under development. Additionally, an Enterprise Software
       Governance Board has been established along with an Enterprise Software Governance
       Board Working Group. This effort includes the development of a standardized process
       for ensuring consistency in asset management across the enterprise. IRS management
       also stated that they have already completed actions to ensure that software management
       policies and guidance are aligned to and include the protocols, functions, and
       decisionmaking outcomes across enterprise units through the Enterprise Software
       Governance Board. The IRS is working to complete a number of other software
       management actions, including developing an enterprise-wide repeatable method to

                                                                                         Page 15
                  The Internal Revenue Service Should Improve
              Server Software Asset Management and Reduce Costs



manage and track the deployment of licenses that can be uniformly used by all
organizational entities responsible for managing licenses. These and other efforts under
development will help move the IRS towards a comprehensive enterprise program for
software license management.
While the IRS agreed with our recommendation to improve the management of server
software licenses, the IRS disagreed with TIGTA’s findings on the overdeployment,
underdeployment, and nondeployment of software licenses and the related outcome
measures. Specifically:
      The IRS stated that it found discrepancies in TIGTA’s analysis that stem from a
       misinterpretation of how IBM software is licensed and what constitutes
       underdeployment, overdeployment, and nondeployment of perpetual licenses.
       The IRS also stated that it found instances in which TIGTA calculated values
       using license costs but a maintenance cost would have been more appropriate.
      The IRS disagreed with all of the IBM server software found by TIGTA to have
       nondeployed and underdeployed licenses in Figure 2: IBM Software With No
       Licenses Deployed and in Figure 3: IBM Software With Licenses Underdeployed.
       The IRS stated that TIGTA’s estimated values should only contain the cost of
       annual support because the IRS already owns these licenses, whereas TIGTA
       based its estimated values on the cost of purchasing the nondeployed and
       underdeployed licenses as well as their annual support costs.
      The IRS disagreed that licenses were overdeployed on nine of the 11 IBM
       software products shown in Figure 4: IBM Software With Licenses
       Overdeployed.
      The IRS also disagreed that licenses were underdeployed and overdeployed on
       six of the nine software products shown in Figure 1: Software Licenses
       Underdeployed and Overdeployed.
Office of Audit Comment: We did not include any unlimited licenses within the
report calculations and not all IBM products reviewed and presented in this report were
covered by a perpetual license. To determine the extent that IBM licenses were
underdeployed, overdeployed, and nondeployed, we relied on a study performed by a
contractor, the results of which were reviewed and not disputed by another IRS contractor
as well as IRS staff.
In estimating the value of nondeployed, underdeployed, and overdeployed licenses, we
used the one-time GSA price of purchasing the licenses at the point in time we performed
our review. We also included the GSA price of annual maintenance because it is an
annual recurring cost of maintaining the licenses. The IRS asserted that we should have
only used maintenance costs. This methodology would be appropriate if the IRS
demonstrated that it had ever deployed or utilized these software licenses. We requested
                                                                                  Page 16
                  The Internal Revenue Service Should Improve
              Server Software Asset Management and Reduce Costs



but did not obtain software license utilization and costing information from the IRS on
the IBM software in the contractor study.
The IRS is unable to accurately track utilization of its software license assets and does
not have any detailed costing information for the software license assets presented in this
report. We note in the report that the estimated range of the cost of nondeployed or
underdeployed licenses could be lower if the IRS had ever used the software; however, it
should be noted that the total cost over time of this software could actually be higher. We
only included the license cost and the cost of maintenance for one year even though the
IRS owned and paid maintenance for several years on many of these software products.
The amount of underpayment for the overdeployed licenses could also be higher over
time. Moreover, the range we report also includes the potential discounted price to
account for the possibility that the IRS received a substantial discount due to the volume
and bundling even though the IRS does not have any documentation supporting this
claimed discount.
Finally, in our review of 23 server software products, we held numerous meetings with
subject matter experts from the VCMO, Enterprise Operations organization, Office of
Procurement, and various other business units involved in the procurement, installation,
and use of the software. When available, we obtained and reviewed documentation
provided by these individuals to develop our estimated values.




                                                                                   Page 17
                               The Internal Revenue Service Should Improve
                           Server Software Asset Management and Reduce Costs



                                                                                     Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS is adequately managing
server software licenses. To accomplish our objective, we:
I.         Determined Government requirements and industry best practices1 for software license
           management.
           A. Reviewed Government requirements and industry best practices for software license
              management and Government Accountability Office and TIGTA audit reports on
              software license management.
           B. Identified additional Government requirements for software license management that
              applied to the management of server software licenses.
           C. Identified additional industry best practices for software license management that
              applied to the management of server software licenses.
           D. Identified additional Government Accountability Office and TIGTA audit reports on
              software license management that applied to the management of server software
              licenses.
II.        Determined if the IRS has developed adequate policies, procedures, roles, and
           responsibilities for the management of server software licenses.
           A. Determined if the IRS has an enterprise-wide policy for server software license
              management that is consistent with Government requirements and industry best
              practices.
           B. Determined if the IRS has enterprise-wide procedures for server software license
              management that are consistent with Government requirements and industry best
              practices. For example, procedures should cover 1) centralized inventories with
              licensing data, 2) using tools for discovering installed software and monitoring
              software use, 3) reconciling reports from tools with software license records,
              4) monitoring the use of deployed licenses, and 5) using software licensing data to
              better negotiate software license purchases and maintenance agreements with
              vendors.
           C. Determined if the IRS has enterprise-wide roles and responsibilities for server
              software license management that are consistent with Government requirements and

1
    See Appendix V for a glossary of terms.
                                                                                            Page 18
                         The Internal Revenue Service Should Improve
                     Server Software Asset Management and Reduce Costs



          industry best practices and if the IRS has assigned roles and responsibilities for all
          software license management procedures.
       D. Determined if the Enterprise Operations organization has local policies, procedures,
          and roles and responsibilities for server software license management that are
          consistent with Government requirements and industry best practices.
       E. Determined if the IRS’s policies, procedures, and roles and responsibilities establish a
          centralized, rather than decentralized, organization and structure for server software
          license management.
III.   Determined if the IRS has a centralized server licensing inventory and manages and
       maintains the inventory with software tools designed for license management.
       A. Determined if the IRS has a centralized inventory of server software including
          licensing data.
       B. Determined if the IRS adequately uses tools for discovering installed software and
          monitoring software use.
          1. Determined how frequently the IRS performs server software discovery and
             software use scans and generates management reports.
          2. Determined if the IRS’s scans are capable of detecting 1) unauthorized
             (unlicensed) software installed, 2) the deployment of more licenses than were
             bought, 3) the deployment of significantly fewer licenses than were bought, and
             4) deployed licenses that are not being used and can be harvested and reissued to
             other users or servers.
          3. Determined if the IRS uses server software licensing reports from the discovery
             tool to reconcile known software and licenses against discovery results and to
             resolve exceptions or noncompliance with software licenses.
          4. Determined if the IRS uses server software and license inventory data to better
             negotiate, package, and consolidate software license purchases, renewals, and
             maintenance with vendors.
IV.    Determined if the IRS is adequately managing software licenses by reviewing a selection
       of server software products.
       A. Determined the inventory data the IRS has on its server software products and how it
          could be used to select software products to review the IRS’s software license
          management.
       B. With a goal to illustrate the effect of the current IRS processes in place to track and
          manage software licenses, we chose to select a subset of 24 software products for
          review. Because the IRS did not have a complete centralized inventory of its

                                                                                           Page 19
                 The Internal Revenue Service Should Improve
             Server Software Asset Management and Reduce Costs



   software, including licensing data, three lists of software products were used to select
   the server software products. The Enterprise Standards Profile is a portfolio of all
   (enterprise-wide) approved commercial off-the-shelf software products that have been
   tested and approved for use on IRS computers. The IRS may or may not choose to go
   forward with purchasing and installing the products on this list. Because of this,
   100 server software products were randomly selected from the Enterprise Standards
   Profile as potential cases. To better refine the potential cases, two additional lists
   from the IRS were used: 1) software installed on IRS computers as identified via IRS
   network scans and 2) software purchased as identified from several recordkeeping
   systems. If any of the 100 software products selected from the Enterprise Standards
   Profile could not be identified on either of these two sources, it was removed from the
   list of potential cases. From the 34 potential cases identified through this process,
   information was requested and received from the IRS for 24 software products. One
   product of the 24 was deleted as it was determined that the license for this product
   was not owned by the IRS.
C. On each software product reviewed, 1) obtained the software licensing agreement or
   other documentation that named and explained the licensing metric, 2) reviewed
   software purchase documents, 3) reviewed records used by the IRS to manage and
   track the deployment of software licenses, and 4) determined the scope of the IRS’s
   software licensing management and tracking activities.
D. On each software product reviewed, obtained additional documentation and
   interviewed IRS employees as necessary to substantiate the accuracy of the software
   licensing data being managed and tracked.
E. On each software product reviewed, determined if the IRS was managing and
   tracking licenses for 1) the deployment of more licenses than were bought, 2) the
   deployment of significantly fewer licenses than were bought, 3) deployed licenses
   that were not being used and could be harvested and reissued to other users or
   computers, and 4) any other software license management activities that the IRS
   could be doing based upon comparison with other reviewed products. We also
   calculated the estimated costs of license overdeployment and underdeployment.
F. On each software product reviewed, determined how exceptions or noncompliance
   with software licenses are resolved.
G. On each software product reviewed that was for annual software renewal or
   maintenance, determined if the number of software licenses that maintenance was
   purchased for was the minimum needed based on data that tracked the license
   deployment history of the software product.




                                                                                  Page 20
                          The Internal Revenue Service Should Improve
                      Server Software Asset Management and Reduce Costs



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the IT organization’s policies,
procedures, and processes for managing and tracking software licenses. We evaluated these
controls by interviewing IT organization management, identifying Federal requirements and
industry best practices for managing and tracking software licenses, and reviewing software
license management and tracking on a selection of server software products.




                                                                                           Page 21
                        The Internal Revenue Service Should Improve
                    Server Software Asset Management and Reduce Costs



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Danny Verneuille, Director
John Ledford, Audit Manager
Richard Borst, Lead Auditor
George Franklin, Senior Auditor
Ryan Perry, Senior Auditor
Kasey Koontz, Auditor




                                                                                     Page 22
                       The Internal Revenue Service Should Improve
                   Server Software Asset Management and Reduce Costs



                                                                       Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer for Operations OS:CTO
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Associate Chief Information Officer, Strategy and Planning OS:CTO:SP
Director, Vendor Contract Management OS:CTO:SP:VCM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                             Page 23
                               The Internal Revenue Service Should Improve
                           Server Software Asset Management and Reduce Costs



                                                                                   Appendix IV

                                       Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
     Inefficient Use of Resources – Potential; $97.8 million midpoint of the range (ranging from
      $81.4 million to $114.1 million) (see page 4).

Methodology Used to Measure the Reported Benefit:
On behalf of IBM, a third-party contractor conducted a compliance review of the IRS’s software
license agreements1 associated with its IBM software contract. The review produced lists of
software with data on the number of licenses that had been nondeployed, underdeployed, and
overdeployed. The IBM contract in effect when the compliance review was performed did not
include itemized pricing information that TIGTA could use to determine the exact cost of the
nondeployed, underdeployed, and overdeployed licenses and related software and subscription
support. Therefore, we used the 2012 IBM GSA Price List, the only itemized pricing
information available, to estimate the cost with the exception of a small number of software
products for which we could not match to a GSA price.
Also, IRS management stated that because the IRS is a large purchaser of IBM software it pays
30 percent less than the GSA price, which could potentially affect the estimated value of license
nondeployment, underdeployment, and overdeployment. The IRS was unable to provide
documentation showing that such discounts occurred for the software in our analysis; however,
to account for this possibility, we show the potential discounted amount in the range.
Based on the compliance review, GSA prices, and IRS comment, we determined that the IRS
had:
          Purchased but not deployed software licenses and related software and subscription
           support on 43 IBM server software products at the time of the compliance review, at an
           estimated range of value from $43.3 million to $62.0 million with a midpoint value of the
           range at $52.7 million.



1
    See Appendix V for a glossary of terms.
                                                                                            Page 24
                         The Internal Revenue Service Should Improve
                     Server Software Asset Management and Reduce Costs



      Deployed significantly fewer software licenses and related software and subscription
       support than it purchased on 18 IBM server software products at the time of the
       compliance review, at an estimated range of value from $32.8 million to $46.8 million
       and a midpoint value of the range at $39.8 million. Our figures on license
       underdeployments only include amounts in excess of 10 percent of the number of
       licenses purchased.
These ranges could be lower or higher depending on the extent that the IRS had used the licenses
prior to the compliance review. However, the IRS does not know if the software licenses were
ever used. In addition to nondeployed and underdeployed licenses identified in the contractor
review, we found that licenses were underdeployed for eight of 23 server software products we
reviewed, at an estimated cost of $5.3 million. This figure includes only the amount in excess of
10 percent of the number of licenses purchased. To determine the extent that licenses were
underdeployed and overdeployed in the products we reviewed, we obtained requisitions and
purchase orders to determine the number of licenses purchased, the number of licenses that
maintenance was purchased for, and the prices paid. We also obtained IRS license tracking
reports or, if none were available, we requested the data needed, depending on the license metric,
for determining the number of licenses that had been deployed.




                                                                                          Page 25
                            The Internal Revenue Service Should Improve
                        Server Software Asset Management and Reduce Costs



                                                                                        Appendix V

                                 Glossary of Terms

              Term                                            Definition
Best Practices                 Proven activities or processes that have been successfully used by
                               multiple organizations.
Campus                         The data processing arm of the IRS. The campuses process paper and
                               electronic submissions, correct errors, and forward data to the
                               Computing Centers for analysis and posting to taxpayer accounts.
Enterprise Operations          The part of the IRS IT organization that provides server and mainframe
Organization                   computing services for all IRS business entities and taxpayers.
Executive Orders               Legally binding orders given by the President, acting as the head of the
                               Executive Branch, to Federal Administrative Agencies. Executive
                               Orders are generally used to direct Federal agencies and officials in their
                               execution of congressionally established laws or policies.
Executive Order 13103,         Requires Federal agencies to develop software license management
Computer Software Piracy       policies and procedures. It also requires Federal agencies to prepare
                               inventories of software present on computers to help ensure that
                               software is used in compliance with copyright laws.
Executive Order 13589,         Requires Federal agencies to take inventory of their information
Promoting Efficient Spending   technology assets and ensure that they are not paying for nondeployed
                               or underdeployed installed software.
Federal Chief Information      As the principal interagency forum on Federal information technology,
Officer Council                the purpose of the Federal Chief Information Officer Council is to foster
                               collaboration among Federal Government Chief Information Officers in
                               strengthening Governmentwide information technology management
                               practices.
Fiscal Year                    Any yearly accounting period, regardless of its relationship to a calendar
                               year. The Federal Government’s fiscal year begins on October 1 and
                               ends on September 30.
Forrester Research Inc.        A global research and advisory firm that provides research guidance to
                               the information technology industry.
Government Accountability      The audit, evaluation, and investigative arm of Congress that provides
Office                         analyses, recommendations, and other assistance to help Congress make
                               informed oversight, policy, and funding decisions.

                                                                                                 Page 26
                           The Internal Revenue Service Should Improve
                       Server Software Asset Management and Reduce Costs



           Term                                                 Definition
Information Technology           Provides guidelines for the use and management of software and
Infrastructure Library (ITIL®)   licenses.
                                 The ITIL is a widely accepted set of concepts and practices for
                                 information technology service management derived from user and
                                 vendor experts in both the private and public sectors. The ITIL focuses
                                 on the key service management principles pertaining to service strategy,
                                 service design, service transition, service operation, and continual
                                 service improvement, with each principle being covered in a separate
                                 ITIL core publication. Software asset management is a key process
                                 described within the service transition core publication. The ITIL also
                                 has a separate publication entitled Best Practice Software Asset
                                 Management that covers software asset and license management best
                                 practices in more depth than the core publication. ITIL best practices
                                 recommend 1) the development of software license management
                                 policies and procedures and roles and responsibilities; 2) a centralized,
                                 enterprise-wide management structure for software asset management;
                                 3) the use of software license management tools; and 4) the creation and
                                 maintenance of accurate enterprise-wide inventories of software
                                 licenses.
Information Technology           Maturity levels refer to an IT organization’s ability to perform. An
Infrastructure Library (ITIL)    organization passes through the following five evolutionary levels as it
Maturity Levels                  becomes more competent:
                                 Level 1: Initial – Focuses on technology and technology
                                 excellence/experts.
                                 Level 2: Repeatable – Focuses on products/services and operational
                                 processes (e.g., Service Support).
                                 Level 3: Defined – Focuses on the customer and proper
                                 service-level management.
                                 Level 4: Managed – Focuses on business/information technology
                                 alignment.
                                 Level 5: Optimized – Focuses on value and the seamless integration of
                                 information technology into the business and strategy making.
Information Technology           The IRS organization responsible for delivering information technology
Organization                     services and solutions that drive effective tax administration to ensure
                                 public confidence.




                                                                                                  Page 27
                          The Internal Revenue Service Should Improve
                      Server Software Asset Management and Reduce Costs



             Term                                             Definition
National Institute of           A part of the Department of Commerce that is responsible for
Standards and Technology        developing standards and guidelines for providing adequate information
                                security for all Federal Government agency operations and assets.
National Institute of           Requires that Federal agencies employ tracking systems, such as
Standards and Technology        specialized fully automated applications depending on the needs of the
Special Publication             organization, for software protected by quantity licenses to control
800-53, Recommended             copying and distribution and to help ensure that software is used in
Security Controls for Federal   accordance with licensing agreements.
Information Systems and
Organizations
SharePoint                      Microsoft SharePoint is a collection of products and software elements
                                that includes web browser-based collaboration functions and a document
                                management platform. SharePoint can be used to host web sites that
                                access shared workspaces, information stores, and documents.
Software License Agreement      The legal contract between the owner and purchaser of a piece of
                                software that establishes the purchaser’s rights. A software license
                                agreement provides details and limitations on where, how, how often,
                                and when the software can be installed and used, and provides
                                restrictions that are imposed on the software. The agreement includes
                                the licensing model that will be used for defining and measuring the use
                                of the software. For example, a common simple license model could be
                                based on how many people can use the software and how many systems
                                the software may be installed on. Software companies also make special
                                license agreements for large business and Government entities that may
                                be different from those provided to the general consumer.
Treasury Directive              Requires that bureaus periodically scan their networks to detect and
Publication 85-01, Treasury     remove any unauthorized or unlicensed software.
IT Security Program
Treasury Directive 85-02,       Issued to implement Executive Order 13103 and requires that bureaus
Software Piracy Policy          establish and maintain an accurate software inventory to help ensure that
                                software is used in accordance with software license agreements.
                                                     




                                                                                                 Page 28
          The Internal Revenue Service Should Improve
      Server Software Asset Management and Reduce Costs



                                                Appendix VI

Management’s Response to the Draft Report




                                                      Page 29
    The Internal Revenue Service Should Improve
Server Software Asset Management and Reduce Costs




                                                Page 30
    The Internal Revenue Service Should Improve
Server Software Asset Management and Reduce Costs




                                                Page 31
    The Internal Revenue Service Should Improve
Server Software Asset Management and Reduce Costs




                                                Page 32
    The Internal Revenue Service Should Improve
Server Software Asset Management and Reduce Costs




                                                Page 33
